         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
Management Alert on Protective
Force Training Facility Utilization at
the Pantex Plant




DOE/IG-0855                       September 2011
                                  Department of Energy
                                     Washington, DC 20585
                                        September 27, 2011


MEMORANDUM FOR THE ADMINISTRATOR, NATIONAL NUCLEAR SECURITY
                   ADMINISTRATION

FROM:                     Gregory H. Friedman
                          Inspector General
SUBJECT:                 INFORMATION: Management Alert on "Protective Force Training
                         Facility Utilization at the Pantex Plant"

IMMEDIATE CONCERN

As part of our ongoing audit to determine whether the Department of Energy is effectively
utilizing its protective force training facilities, we determined that the National Nuclear Security
Administration's (NNSA) Office of Secure Transportation (OST) plans to spend approximately
$2 million for a new Physical Training/Intermediate Use of Force (PT/IUF) facility at the Pantex
Plant (Pantex) near Amarillo, Texas. Our preliminary analysis suggests that the new facility may
not be needed, making the $2 million expenditure unwarranted. Specifically, we noted that OST
plans to construct the PT/IUF facility although Pantex has existing facilities that have the
capability and capacity to fulfill OST's training needs. Our review of the analysis supporting
construction of the PT/IUF facility revealed that officials did not fully consider Pantex's existing
training facilities before deciding that they did not meet OST's needs. As such, we concluded
that OST should reconsider the decision to construct its own PT/IUF facility at Pantex. We are
bringing these matters to your attention in the expedited form of a management alert because
OST plans to award a construction contract for the PT/IUF facility in November 2011.

BACKGROUND

NNSA's OST authorized approximately $2 million in March 2011, to construct a PT/IUF facility
at Pantex. The planned facility will allow OST to train and certify its Federal agents in physical
fitness activities including running, cycling, and weightlifting; and, intermediate use of force
activities such as gaining and maintaining control in passive and assault situations. OST policies
require that agents participate in sanctioned PT activities as well as obtain an annual certification
in IUF.

To meet the PT requirements, OST currently provides agents with a small exercise/fitness room
at Pantex that is staffed by an exercise physiologist. This facility also includes lockers and a
shower area. OST also provides agents with a membership to a national gym that can be used
locally and while agents are on travel. OST conducts its IUF training in two existing facilities at
Pantex and at an off-site location in Amarillo.
OST plans to construct a facility with 2,287 square feet for IUF activities, 1,820 square feet for
PT, and 1,420 square feet for offices, locker rooms and janitorial space. The OST Facility Board,
which is comprised of senior OST leaders, authorized construction of the Pantex facility in
March 2011. Construction is to be financed through the OST's General Plant Project budget
since the anticipated total cost of the project is under $10 million.

OBSERVATIONS AND CONCLUSIONS

OST's plans to construct the PT/IUF facility at Pantex may not be cost effective nor necessary.
Specifically, we noted that Pantex's existing PT and IUF facilities have the capacity to fulfill
OST's training needs. Although OST's Board approved construction based on an internal
analysis, we found that the analysis had not fully considered the features available in existing
facilities. We recognize the importance of PT/ IUF training for OST agents. However, it
appears that these requirements can be effectively met using existing facilities rather than
spending approximately $2 million to construct a new one. This matter takes on special
importance given the Department's on-going efforts to reduce costs.

ALTERNATIVES ANALYSIS

OST's analysis to justify the construction of a new PT/IUF facility at Pantex did not fully
consider the capability and capacity of Pantex's existing facilities. In particular, we found that
OST had not considered the availability of Pantex's existing PT/IUF facilities as measured by
their utilization rates. The justification document for the new facility stated that OST personnel
could use Pantex's existing facilities; however, the existing facilities were not sufficient to meet
training needs and there was no formal mechanism to control scheduling to allow for flexible
accommodations for the OST agents. According to Facility Management officials, OST chose
not to fully consider the utilization schedules or availability of Pantex's facilities because its
agents informed management that the existing facilities were not suitable for PT training since it
would mix Federal and contractor personnel. An OST Facility Management official stated that
the facilities were also not suitable for IUF training since they lacked key features such as mats
and reinforced walls.

Our analysis of existing facilities showed, however, that Pantex's PT and IUF facilities have the
capability and capacity to meet OST training needs. Further, we did not find the argument
concerning mixing Federal and contractor personnel compelling since OST's current practice of
providing gym memberships results in the agents training with the general public.

                                    Physical Training Facilities

Pantex's PT facility, which is separate from the small exercise/fitness room currently used by
OST on-site, has the equipment and capacity to meet OST needs. Specifically, Pantex's facility
is equipped with treadmills, weights, and cycling equipment and has training personnel on staff.
According to a Pantex official, the existing PT facility can accommodate 25 people at a time.
Based on one month's usage, we found that on average eight people exercised at the facility at
any given time. We also estimated that Pantex's exercise facility was used approximately 33
percent of time on a daily basis. Thus, based on current actual usage, Pantex's PT facility has



                                                 2
more than enough excess capacity to meet OST personnel training needs. Finally, we noted that
OST's proposed PT facility has less square footage than Pantex's current PT facility; and, that it
will accommodate fewer than 25 agents at one time.

In our opinion, OST's justification for constructing a new PT facility was based on faulty
assumptions. Specifically, OST officials stated in the justification that Pantex's PT scheduling
mechanism would not accommodate agent's need for a flexible schedule and would mix the
Federal work force with the contractor employees. However, as noted, we found that OST did
not specifically review schedule availability at Pantex's PT facility. Additionally, OST provided
private gym memberships that would provide agents with any residual need for schedule
flexibility. OST had not made a decision if they will maintain the private gym memberships
even with the construction of a new PT facility. Further, we noted that as a practical matter,
mixing the Federal work force with the general public occurs as a direct result of the private gym
membership provided by OST to agents. Interacting with other contractor employees does not
appear to be a reasonable basis for not using existing PT facilities.

                                Intermediate Use of Force Facilities

Similarly, Pantex's existing IUF facilities have the capability and capacity to meet OST needs,
and, in fact, have been used by OST to meet its training requirements. Currently, OST conducts
its IUF training in two facilities at Pantex and at an off-site location in Amarillo. One Pantex
facility has vacant office space in which OST brought in mats for the IUF training. The second
facility was Pantex's new training building with two classrooms and an open assembly area.
Although OST has used these two facilities in the past, OST also used space at a local college, at
no cost, to conduct IUF training. According to OST personnel, this use was based on the ease
with which arrangements could be made and the ability to accommodate additional observers.
OST personnel also told us that they resorted to using the off-site facility because they did not
believe Pantex's existing facility was suitable for IUF training. Specifically, OST stated that the
facility did not sufficiently accommodate all necessary personnel; floor mats were not available;
the facility was not always available; and, there was no scheduling system to accommodate
training requests.

We found, however, that protective force personnel conduct their IUF training in Pantex's new
training facility. Pantex's new facility has a classroom with the capacity to hold up to 30
individuals and an assembly area that will hold 100. In addition, according to Pantex officials,
the building was constructed to provide additional training space and an area where mats could
be placed on the floor for use during IUF activities. Pantex officials also stated that the new IUF
training facility does not have reinforced walls since the size of the room was large enough to
avoid wall damage during training sessions. Further, as mentioned previously, in our review of
the facility's usage, we found that Pantex utilized its IUF training area less than 18 percent of the
time during the first year after it was constructed. We also found that Pantex has a formal
scheduling system in place for facility usage. According to Pantex personnel, the new facility is
considered a "co-use" facility for Pantex and OST personnel. Pantex's facility can be used on a
first come, first serve basis; however, qualification needs are prioritized above other training
requests with regard to facility availability. To conduct OST's IUF training, OST stated that




                                                  3
they need a facility to train at least 20 agents per session and have access to floor mats. We
concluded that the Pantex training facility's 82 percent excess capacity could meet OST's IUF
training requirements.

                                 Modification to Planned Facility

OST's Board approved the construction of the Pantex facility based on the design and cost for the
recently constructed PT/IUF facility at the Department's Oak Ridge, Tennessee, site. OST
requested that the U.S. Army Corps of Engineers prepare a construction estimate for the PT/IUF
facility at Pantex, since they provided oversight on the construction of the PT/IUF facility in Oak
Ridge. An OST official stated that preliminary estimates show it will cost more at Pantex to
build the same facility since Pantex has additional requirements for security and safety features.
In order to stay within the $2 million budget, an OST official stated that project modifications
could be required, which could then result in a smaller facility than originally planned. We noted
and an OST official agreed that any reductions in size would result in constructing a facility that
is smaller than the existing Pantex spaces. OST plans to issue a request for proposal in
September 2011 and award a construction contract by November 2011.

RECOMMENDATION

Based on our review, we believe that the need for a new training facility at Pantex is highly
questionable. We recognize that decisions, such as the one regarding the planned PT/IUF
facility, are often more complex than they might appear. However, we wanted to ensure that
NNSA decision makers were aware of our concerns before resource commitments were made
regarding the path forward for this $2 million facility.

Accordingly, we recommend that NNSA re-evaluate OST's training facility needs at Pantex,
focusing on the costs and benefits of utilizing existing facilities before proceeding to construct
the new facility.

MANAGEMENT REACTION AND AUDITORS COMMENTS

Management reviewed a draft of this report and stated that in response to the recommendation
OST, in conjunction with the Pantex Site Office, will re-evaluate its training facility
requirements to determine whether a separate OST PT/IUF facility is in NNSA's best interest.

We commend management for taking prompt action to address the recommendation.

cc:   Deputy Secretary
      Associate Deputy Secretary
      Associate Deputy Administrator for Secure Transportation
      Chief of Staff




                                                  4
                                                                    IG Report No. DOE/IG-0855


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

   1. What additional background information about the selection, scheduling, scope, or
      procedures of the audit would have been helpful to the reader in understanding this
      report?

   2. What additional information related to findings and recommendations could have been
      included in the report to assist management in implementing corrective actions?

   3. What format, stylistic, or organizational changes might have made this report's overall
      message more clear to the reader?

   4. What additional actions could the Office of Inspector General have taken on the issues
      discussed in this report which would have been helpful?

   5. Please include your name and telephone number so that we may contact you should we
      have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                      http://www.ig.energy.gov

      Your comments would be appreciated and can be provided on the Customer Response Form.
